No.
IN THE

Supreme Court of tfje ?Hmteb States;
DENNIS BLACK, CHARLES CUNNINGHAM, KENNETH HOLLIS,
AND DELPHI SALARIED RETIREE ASSOCIATION,
Petitioners,
V.

PENSION BENEFIT GUARANTY CORPORATION,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

CERTIFICATE OF SERVICE
I, Anthony F. Shelley, a member of the Bar of this Court, hereby certify that,
on July 22, 2021,1 caused three copies of the Petition for a Writ of Certiorari
(UNDER SEAL version) and Petition for a Writ of Certiorari (REDACTED
versioii) in this case to be served by third-party commercial carrier for delivery the
next calendar day, on counsel of record for Respondent as set forth below. I also
caused electronic copies of the redacted version of the Petition to be served in PDF
format on counsel of record for Respondent. I further certify that all persons
required to be served have been served.

-V

John A. Menke
Craig Fessenden
C. Wayne Owen
Erin Kim
Pension Benefit Guaranty Corporation
Office of the Chief Counsel
1200 K Street, NW, Suite 340
Washington, DC 20005-4026
Tel: 202-326-4020
menke.john@pbgc.gov
fessenden.craig@pbgc.gov
owen. wayne@pbgc. gov
kim.erin@pbgc.gov
efile@pbgc.gov

Elizabeth Prelogar
Acting Solicitor General
United States Dep’t of Justice
950 Pennsylvania Ave. NW
Room 5616
Washington, DC 20530-0001
Tel.: 202-514-2217
SupremeCtBriefs@usdoj .gov

Anthony F. Shelley
Miller & Chevalier Chartered
900 Sixteenth St. NW
Black Lives Matter Plaza
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel for Petitioners

2

